              Audit Report



Bonus Payments Made to California
Disability Determination Services’
            Employees




      A-09-12-21248 | September 2013
MEMORANDUM


Date:      September 11, 2013                                               Refer To:

To:        Grace Kim
           Regional Commissioner
            San Francisco
From:      Inspector General
Subject:   Bonus Payments Made to California Disability Determination Services’ Employees
           (A-09-12-21248)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the California Disability Determination Services had adequate controls to ensure bonus
           payments made to California Disability Determination Services’ employees were proper.

           Please provide within 60 days a corrective action plan that addresses each recommendation. If
           you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

           Attachment

           cc:
           Will Lightbourne, Director, California Department of Social Services
           Eva L. Lopez, Deputy Director, Disability Determination Services Division
           Gary S. Hatcher, Senior Advisor for Records Management and Audit Liaison Staff
Bonus Payments Made to California Disability Determination
Services’ Employees
A-09-12-21248
September 2013                                                          Office of Audit Report Summary

Objective                                Our Findings

To determine whether the California      CA-DDS needs to improve controls to prevent and detect improper
Disability Determination Services        bonus payments made to MCs. Specifically, we found that
(CA-DDS) had adequate controls to        CA-DDS
ensure bonus payments made to
CA-DDS employees were proper.            •   improperly paid 20 MCs $15,687 in bonuses;

Background                               •   did not always comply with its bonus approval requirements or
                                             retain supporting documentation of bonus payments;
Disability Determination Services in
each State perform disability            •   improperly paid an estimated $277,135 in bonuses for duplicate
determinations under the Social              cases claimed; and
Security Administration’s (SSA)
disability programs in accordance with   •   needed to improve its oversight of MC performance.
Federal law and regulations. SSA
reimburses State agencies for            Our Recommendations
allowable expenditures to assist in
making proper disability                 We recommend that SSA:
determinations. Medical consultants
                                         1. Instruct CA-DDS to take appropriate corrective action for the
(MC) employed by CA-DDS are paid a
                                            $15,687 in improper payments made to 20 MCs.
salary for their review of the medical
aspects of disability claims. CA-DDS     2. Instruct CA-DDS to improve controls to prevent and detect
also provides MCs an additional             improper payments made to MCs.
$27 for each disability case reviewed
that exceeds an established weekly       3. Instruct CA-DDS to refund $277,135 in improper bonus
threshold.                                  payments and benefits for duplicate cases claimed by MCs or
                                            provide documentation that the payments were proper.
In a 2007 audit, we found that
CA-DDS improperly paid MCs               4. Work with CA-DDS to determine whether there is a
approximately $47,000 in bonus              cost-effective method to identify and refund any improper
payments. For our current audit, we         bonus payments and benefits for duplicate cases claimed in
identified 104 MCs whom CA-DDS              Fiscal Years 2006 through 2008.
paid approximately $5 million in
bonuses during Fiscal Years 2009         5. Work with CA-DDS to develop a cost-effective quality
through 2011.                               assurance program that ensures MCs who participate in the
                                            bonus program maintain program requirements regarding case
                                            accuracy.

                                         SSA and CA-DDS generally agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     CA-DDS Policies and Procedures for Claiming and Approving Bonus Pay.............................3
     Improper Bonus Payments .........................................................................................................3
     Control Weaknesses in the Review and Approval of Bonus Payments.....................................4
     Improper Payments for Duplicate Cases....................................................................................5
     Oversight of MC Performance ...................................................................................................6
Conclusions ......................................................................................................................................6
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
Other Matter .....................................................................................................................................8
     90-Case Weekly Threshold ........................................................................................................8
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Medical Consultant - Case Closure Bonus Certification form ........................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – California Department of Social Services’ Response ..........................................E-1
Appendix F – Major Contributors............................................................................................... F-1




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)
ABBREVIATIONS
CA-DDS             California Disability Determination Services

C.F.R.             Code of Federal Regulations

DDS                Disability Determination Services

DEA                Disability Evaluation Analyst

DI                 Disability Insurance

FY                 Fiscal Year

MC                 Medical Consultant

MIDAS              Modernized Integrated Disability Adjudicative System

OIG                Office of the Inspector General

POMS               Program Operations Manual System

SSA                Social Security Administration

SSI                Supplemental Security Income

U.S.C.             United States Code




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)
OBJECTIVE
To determine whether the California Disability Determination Services (CA-DDS) had adequate
controls to ensure bonus payments made to CA-DDS employees were proper.

BACKGROUND
Disability Determination Services (DDS) in each State or other responsible jurisdiction perform
disability determinations under the Social Security Administration’s (SSA) Disability Insurance
(DI) and Supplemental Security Income (SSI) programs. DDSs must perform these
determinations in accordance with Federal law and underlying regulations. Each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. 1 SSA is responsible for implementing policies for the development of
disability claims under the DI and SSI programs. 2 SSA reimburses State agencies for allowable
expenditures to assist in making proper disability determinations. 3

CA-DDS pays its medical consultants (MC) an annual salary of between $105,000 and $155,000
to review the medical aspects of disability claims. CA-DDS also provides MCs an additional
$27 for each disability case they review that exceeds an established minimum weekly threshold
(90 cases for a full-time MC). To receive a bonus payment, MCs must complete and certify a
Medical Consultant-Case Closure Bonus Certification form (see Appendix C). MCs then submit
a certification form to a supervisor for review and approval. In November 2011, CA-DDS
suspended the bonus program.

In a 2007 audit, 4 we found that because of control weaknesses, CA-DDS improperly paid MCs
$46,656 in bonuses. Specifically, CA-DDS’ review and approval process did not always detect
(1) duplicate cases claimed; (2) instances where MCs claimed extra cases without meeting their
minimum weekly thresholds; and (3) instances where the number of extra cases claimed on
certification forms exceeded the number supported by logs. In our 2007 audit, we recommended
that CA-DDS improve its controls to prevent and detect improper bonus payments made to MCs.
In response to our recommendation, CA-DDS stated it would improve its controls by
implementing an electronic method to track the number of cases completed by MCs.

For our current audit, we identified 104 MCs whom CA-DDS paid approximately $5 million in
bonuses during Fiscal Years (FY) 2009 through 2011 (October 2008 through September 2011).



1
 Social Security Act §§ 221, 1601 et seq.; 42 U.S.C. §§ 421, 1381 et seq.; 20 C.F.R. §§ 404.1601 et seq. and
416.1001 et seq.; and SSA, POMS, DI 00115.001.D. (October 11, 2012).
2
    SSA, POMS, DI 00115.001 (October 11, 2012).
3
    Social Security Act §§ 221 and 42 U.S.C. §§ 421(3)(e); and C.F.R. §416.1003.
4
 SSA, OIG, Administrative Costs Claimed by the California Disability Determination Services (A-09-06-16129),
July 2007.



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                        1
Table 1 summarizes the bonus payments for the 3-year period.

                                 Table 1: Summary of Bonus Payments
                                                            Number of
  Amount Paid to Individual                 Number           Bonus               Total             Percent of
              MCs                           of MCs          Payments         Amount Paid             Total
Between $346,000 and $857,000                    5            177             $3,472,254               69
Between $26,000 and $173,000 5                  21            526             $1,360,296               27
Less than $26,000                               78            243               $201,798                4
                  Total                          104            946           $5,034,348 6             100

From the above population, we reviewed the highest

•     10 bonus payments made to each of the 5 MCs (50 payments) who received between
      $346,000 and $857,000 and
•     2 bonus payments made to each of the 21 MCs (42 payments) who received between $26,000
      and $173,000.

Finally, we identified a population of 23,596 potentially duplicate cases claimed by MCs. From
this population, we selected a random sample of 200 for review. See Appendix A for details of
our scope and methodology.

RESULTS OF REVIEW
CA-DDS needs to improve controls to prevent and detect improper bonus payments made to
MCs. Specifically, we found the following.

•     Our review of the 92 bonus payments found that CA-DDS improperly paid 20 (77 percent) of
      the 26 MCs’ bonuses, totaling $15,687.
•     The review and approval of 92 bonus payments contained 54 control weaknesses.
•     Based on our review of the random sample of 200 potential duplicate cases claimed, we
      estimate that CA-DDS improperly paid $277,135 in bonuses. We are 90-percent confident
      the improper bonus payments ranged from $234,072 to $320,198.
•     We found that CA-DDS needed to improve its oversight of MC performance.

See Appendix B for our sampling methodology, results, and projections.


5
    There were no MCs whom CA-DDS paid a bonus between $173,000 and $346,000.
6
 This does not include about $1 million in benefits associated with the bonus payments (for example, retirement
contributions) that SSA reimburses CA-DDS.



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                           2
CA-DDS Policies and Procedures for Claiming and Approving Bonus
Pay
CA-DDS supervisors must obtain a weekly report from the Modernized Integrated Disability
Adjudicative System (MIDAS) of cases completed by MCs who have participated in the bonus
program during the week. The MIDAS report includes case completion dates, the MC’s user
identification code, a 6 or 7 digit case number, and the total number of cases the MC completed
for the week. The supervisor must then review the weekly MIDAS report to (1) determine the
number of cases completed and (2) identify and remove any cases that were signed off more than
once. The supervisor must also review time and attendance records to determine the correct
weekly threshold amounts. 7

At the end of each month, the MC and supervisor must sign and certify a Medical
Consultant-Case Closure Bonus Certification form to receive a bonus payment (see
Appendix C). This form contains the

•   number of cases the MC completed each week during the month,
•   weekly case threshold amount to be eligible for a bonus,
•   number of cases that exceeded the weekly threshold,
•   number of cases eligible for bonus pay, and
•   total bonus amount payable for the month.

Finally, CA-DDS supervisors must submit the completed certification form to payroll so the MC
can be paid.

Improper Bonus Payments
Our review of the 92 bonus payments found that CA-DDS improperly paid 20 MCs 41 improper
bonuses totaling $15,687 (see Appendix B). The improper payments occurred because of control
weaknesses in CA-DDS’ review and approval of bonuses. Specifically, we found the following.

Completed Cases on Certification Forms Exceeded Completed Cases in MIDAS – For
20 payments, we found that the number of cases on the Medical Consultant–Case Closure Bonus
Certification form was higher than the number of cases on the weekly MIDAS reports. For
example, in June 2011, CA-DDS paid an MC a $3,591 bonus based on a Medical
Consultant–Case Closure Bonus Certification form that showed the MC completed 133 bonus
cases. However, the MIDAS weekly reports showed that the MC only completed 113 bonus
cases. As a result, CA-DDS overpaid the MC $540.



7
 Holidays and furlough days reduce the weekly threshold amounts, whereas vacation days or other time off from
work does not.



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                         3
Completed Cases in MIDAS Exceeded Completed Cases on Certification Forms – For
10 payments, we found that there were more cases on the weekly MIDAS reports than the
number of cases on the Medical Consultant – Case Closure Bonus Certification form. For
example, in August 2010, CA-DDS paid an MC a $39,501 bonus based on a Medical
Consultant–Case Closure Bonus Certification form that showed the MC completed 1,463 bonus
cases. However, the MIDAS weekly reports showed the MC actually completed 1,481 cases.
As a result, CA-DDS underpaid the MC $486.

Incorrect Weekly Threshold Amounts – For 11 payments, we found incorrect weekly threshold
amounts on the Medical Consultant–Case Closure Bonus Certification form. This occurred
because MCs and supervisors did not reduce the weekly threshold amounts for holidays and
furlough days or incorrectly reduced the weekly threshold amounts for vacation days or other
time off work. For example, in July 2011, CA-DDS paid an MC a $29,754 bonus. However, the
MC and supervisor incorrectly reduced the weekly threshold amounts for 3 personal leave days.
As a result, CA-DDS overpaid the MC $1,944.

According to CA-DDS, the number of cases claimed on the bonus certification form should
equal the number of cases on the MIDAS weekly reports. The MC or supervisor should note and
explain any differences on the certification form. Additionally, the supervisor must reduce the
weekly threshold amounts to account for holidays and furlough days and should not reduce the
weekly threshold for vacation days.

Control Weaknesses in the Review and Approval of Bonus Payments
In our 2007 audit, 8 we found that CA-DDS made improper bonus payments to MCs because of
control weaknesses. In response to our audit, CA-DDS revised MIDAS to produce automated
weekly reports of the number of cases MCs completed. However, our current review of the
92 bonus payments identified 54 deficiencies with CA-DDS’ review and approval of bonus
payments. Our review of the 92 payments found the following.

•   Twenty-two payments did not have the required weekly MIDAS report.

•   Twelve payments did not have a Medical Consultant-Case Closure Bonus Certification form
    to document CA-DDS’ review and approval of bonus payments. According to DDS
    management, the certification forms could not be located.

•   Six payments did not have signatures on the Medical Consultant–Case Closure Bonus
    Certification forms. This included four certification forms that did not have the MC and
    supervisor signatures. For the remaining two Certification forms, an MC did not sign one
    and a supervisor did not sign one.



8
 SSA, OIG, Administrative Costs Claimed by the California Disability Determination Services (A-09-06-16129),
July 2007.



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                        4
•   Eleven payments contained incorrect threshold amounts on the Medical Consultant–Case
    Closure Bonus Certification forms. This included threshold amounts that the MC or
    supervisor did not reduce for holidays and furlough days or improperly reduced for vacation
    days and other days off from work.

•   Three payments did not have the MCs’ time and attendance records. Therefore, we could not
    determine whether CA-DDS used correct weekly threshold amounts.

Table 2 summarizes the results of our review.

                             Table 2: Summary of Control Deficiencies
                                                                                          Number of
                            Control Weakness                                              Occurrences
    Missing MIDAS Weekly Reports                                                              22
    Missing Medical Consultant–Case Closure Bonus Certification Forms                         12
    No Supervisor and/or MC Signature on Certification Forms                                   6
    Incorrect Threshold Amounts                                                               11
    Missing Time and Attendance Records                                                        3
                                          Total                                                 54

Improper Payments for Duplicate Cases
In our 2007 audit, 9 we found that CA-DDS did not have adequate controls to identify duplicate
cases claimed by MCs. Specifically, we found that supervisors did not identify and remove
duplicate cases listed on a Medical Consultant-Case Closure Bonus Certification form. In
response to our audit, CA-DDS revised MIDAS to produce automated weekly reports of the
number of cases completed by MCs. However, the MIDAS report does not specifically identify
duplicate cases completed. Therefore, a supervisor must manually review the MIDAS reports to
identify any duplicate case numbers and exclude them from the Medical Consultant–Case
Closure Bonus Certification form.

For our current audit, we identified 23,596 potential duplicate cases that MCs had signed off as
completed. Our review of a random sample of 200 cases found that CA-DDS improperly paid
$2,349 for 78 (39 percent) duplicate cases. This consisted of 63 cases where the Medical
Consultant–Case Closure Bonus Certification form improperly included the duplicate cases and
15 cases where CA-DDS did not retain the weekly MIDAS reports or the Medical Consultant–
Case Closure Bonus Certification forms showing the supervisor identified and removed the
duplicate cases. In addition, CA-DDS’ Quality Assurance Unit or SSA’s Disability Quality



9
 SSA, OIG, Administrative Costs Claimed by the California Disability Determination Services (A-09-06-16129),
July 2007.



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                        5
Branch had returned 25 of the 78 cases for corrective action. 10 The remaining 122 duplicate
cases did not result in an improper payment. Projecting our sample results to the population of
23,596 duplicate cases, we estimate that CA-DDS improperly paid MCs $277,135 for
9,202 duplicate cases claimed (see Appendix B).

The improper payments occurred because the weekly MIDAS reports did not specifically
identify duplicate cases completed, and, during their review of the MIDAS reports, supervisors
did not identify and remove the duplicate cases.

Oversight of MC Performance
SSA policy states that each State is responsible for providing an in-depth and substantive review
of adjudicated claims for disability benefits. 11 According to SSA policy, a State’s Quality
Assurance system should enable a DDS to provide the best possible service to the public, detect
and correct errors, and provide a means for measuring individual performance. 12 Additionally,
SSA policy states that the DDS’ Quality Assurance Unit should perform an ongoing review of a
random sample of all completed cases and a separate sample of high-risk cases. 13 Finally,
CA-DDS requires that MCs who participate in the bonus program maintain program
requirements regarding case accuracy. 14

Our review found that CA-DDS should improve its quality assurance oversight of MCs.
Specifically, CA-DDS did not perform an ongoing random sample review of all completed MC
cases. According to CA-DDS, it only conducted targeted reviews of cases with certain
characteristics (for example, psychological denial cases or other cases deemed error-prone).
Finally, CA-DDS stated that its targeted reviews did not provide valid accuracy rates at the
individual MC level. Therefore, we were unable to determine whether CA-DDS ensured MCs’
performance maintained an appropriate level of case accuracy as required by the bonus program.

CONCLUSIONS
CA-DDS needs to improve controls to prevent and detect improper payments made to MCs. Our
review identified several control weaknesses in CA-DDS’ review and approval of bonus
payments. These weaknesses resulted in $15,687 in improper payments for the sample of MCs
we reviewed. They also resulted in improper payments for duplicate cases claimed. In our 2007




10
 SSA’s Disability Quality Branch performs medical quality reviews of disability claims completed by the State
Agency, DDS, and by field offices.
11
     SSA, POMS, DI 30001.001(October 23, 2009).
12
     SSA, POMS, DI 30001.005(October 23, 2009).
13
     SSA, POMS, DI 30001.205(October 23, 2009).
14
     The FY 2013 annual target rate for DDS case accuracy is 97 percent.



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                         6
audit, 15 we estimated that CA-DDS improperly paid $35,640 for duplicate cases claimed in FYs
2004 and 2005. In our current audit, we estimated CA-DDS paid $277,135 in improper bonuses
payments for duplicate cases in FYs 2009 through 2011. We believe these weaknesses would
have also resulted in improper payments for duplicate cases claimed in FYs 2006 through 2008.
Finally, CA-DDS needs to improve its oversight of MC performance.

RECOMMENDATIONS
We recommend that SSA:

1. Instruct CA-DDS to take appropriate corrective action for the $15,687 in improper payments
   made to 20 MCs.

2. Instruct CA-DDS to improve controls to prevent and detect improper payments made to
   MCs. The improved controls should ensure CA-DDS (a) identifies duplicate cases claimed,
   (b) correctly determines weekly threshold amounts, and (c) properly retains all
   documentation supporting bonus payments.

3. Instruct CA-DDS to refund $277,135 in improper bonus payments and benefits for duplicate
   cases claimed by MCs or provide documentation that the payments were proper.

4. Work with CA-DDS to determine whether there is a cost-effective method to identify and
   refund any improper bonus payments and benefits for duplicate cases claimed in FYs 2006
   through 2008.

5. Work with CA-DDS to develop a cost-effective quality assurance program that ensures MCs
   who participate in the bonus program maintain program requirements regarding case
   accuracy.

AGENCY COMMENTS
SSA and CA-DDS generally agreed with our recommendations. In its response, CA-DDS
acknowledged that it had improperly paid bonus payments to some MCs and stated that it would
work with SSA to determine the appropriate amounts to refund to SSA for Recommendations 1
and 3. See Appendix D and Appendix E for the text of SSA’s and CA-DDS’ comments. SSA
also provided technical comments that have been addressed, where appropriate.




15
  SSA, OIG, Administrative Costs Claimed by the California Disability Determination Services (A-09-06-16129),
July 2007



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                         7
OTHER MATTER
90-Case Weekly Threshold
The CA-DDS bonus program states that MCs will receive $27 for each disability case reviewed
that exceeds a weekly threshold of 90 cases for a full-time MC. In FYs 2009 through 2011, CA-
DDS MCs reviewed approximately 1.3 million disability cases. Table 3 summarizes the number
of cases MCs reviewed for the 3-year period.

                       Table 3: Summary of Cases Reviewed by MCs
                                                           Number of
                Bonuses Paid to              Number of       Cases          Weekly
                Individual MCs                 MCs         Completed        Average
        Between $346,000 and $857,000             5          170,793         219
        Between $26,000 and $173,000             21          213,933          65
        Between $27 and $25,999                  78          585,566          48
        Did Not Receive a Bonus                 142          291,266          13
                      Total                      246         1,261,558         33

To understand the differences in the number of cases reviewed by MCs, we interviewed
CA-DDS supervisors and MCs and observed MCs perform case reviews. According to CA-DDS
supervisors and MCs, the variances in the number of cases reviewed were due to differences in
computer skills, experience levels, and the methodologies used to review cases. During our
observations, some MCs thoroughly reviewed the medical evidence before reaching a conclusion
and provided a lengthy narrative for their conclusion, whereas other MCs relied more on the
Disability Evaluation Analyst’s case preparation to reach a conclusion and used templates to
write their conclusions.

In September 2011, SSA’s San Francisco Regional Office reviewed the administration and
management oversight of the MC bonus program. As a result of its review, the San Francisco
Regional Office recommended that CA-DDS review the 90-case weekly threshold because
electronic case processing, and the Disability Evaluation Analyst’s preparation of cases has made
the MC case review more efficient. We agree with this recommendation and believe CA-DDS
should increase the 90-case threshold requirement before an MC is eligible for a bonus.




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                         8
                                    APPENDICES




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)
Appendix A – SCOPE AND METHODOLOGY
From the California Disability Determination Services (CA-DDS), we obtained personnel cost
data for 104 medical consultants (MC) for Fiscal Years (FY) 2009 through 2011. From this
population, we identified 26 MCs who received over $25,000 in bonus payments during the
3-year period.

We also obtained a data file that consisted of disability case data for cases reviewed by MCs who
participated in the bonus program during our 3-year period (FYs 2009 through 2011). From the
data file, we identified a population of 23,596 cases in which an MC may have been paid bonus
for a case more than once.

To accomplish our objective, we

•   reviewed applicable Federal laws and regulations and applicable sections of the Social
    Security Act and SSA’s Program Operations Manual System;

•   interviewed employees from the California Department of Social Services (CA-DDS) and
    SSA employees from the San Francisco Regional Office’s Management and Operations
    Support, Center for Disability;

•   determined whether bonus payments made to MCs were proper by reviewing the

       weekly generated MIDAS reports;
       electronic file of disability case data;
       MC monthly timesheets; and
       Medical Consultant-Case Closure Bonus Certification forms.

We determined the computer-processed data from the CA-DDS were sufficiently reliable for our
intended use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit objective.

We conducted our audit in Richmond, California, and at various CA-DDS branch offices
between September 2012 and June 2013. The entities audited were SSA’s San Francisco
Regional Office and CA-DDS.

We conducted our audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                       A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained payroll data for Fiscal Years (FY) 2009 through 2011 for all medical consultants
(MC) employed by the California Disability Determination Services (CA-DDS). We identified
104 MCs whom CA-DDS paid $5,034,348 in bonuses during this period.

Table B–1 summarizes the bonus payments for the 3-year period.

                              Table B–1: Summary of Bonus Payments
          Amount Paid to        Number of      Number of Bonus        Total Amount       Percent
          Individual MCs          MCs             Payments                Paid           of Total
        Between $346,000
        and $857,000                     5             177             $3,472,254            69
        Between $26,000
        and $173,000 1                21               526             $1,360,296            27
        Less than $26,000             78               243               $201,798             4
                Total                104               946             $5,034,348           100

Improper Bonus Payments
From the population of 946 bonus payments, we reviewed the highest (1) 10 bonus payments
made to each of the 5 MCs who received between $346,000 and $857,000 and (2) 2 bonus
payments made to each of the 21 MCs who received between $26,000 and $173,000. Based on
our review, we found that CA-DDS improperly paid 20 MCs $15,687.

The following tables provide the details of our sample results.

                               Table B–2: Population and Sample Sizes
                    Amount Paid to Individual              Bonus
                              MCs                         Payments         Sample Size
                  Between $346,000 and $857,000             177               50
                  Between $26,000 and $173,000              526               42
                                 Total                       703               92




1
    There were no MCs who CA-DDS paid a bonus between $173,000 and $346,000.



Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                             B-1
                              Table B–3: Improper Bonus Payments
                                       Number of                                               Total
 Amount Paid to        Number          Improper                                              Improper
 Individual MCs        of MCs          Payments        Overpayment Underpayment              Payments
Between $346,000
and $857,000                    5            24           $4,050                 $4,725       $8,775
Between $26,000
and $173,00                   15             17           $3,483                 $3,429       $6,912
       Total                  20             41           $7,533                 $8,154      $15,687

Improper Payments for Duplicate Cases Claimed
We identified a population of 23,596 potential duplicate cases claimed by MCs during FYs 2009
through 2011. From this population, we randomly selected 200 for review. We found that
78 (39 percent) of the 200 potential duplicate payments resulted in improper duplicate payments
totaling $2,349. Projecting our sample results to the population of 23,596 duplicate cases, we
estimate that CA-DDS improperly paid MCs $277,135 for 9,202 duplicate cases claimed.

The following tables provide the details of our sample results and statistical projections.

                              Table B–4: Population and Sample Size
                                     Description                         Number
                                    Population Size                       23,596
                                     Sample Size                           200

                Table B–5: Improper Payments for Duplicate Cases Claimed
                         Description                          Number              Amount
                        Sample Results                            78                $2,349
                        Point Estimate                         9,202              $277,135
                   Projection – Lower Limit                    7,847              $234,072
                   Projection – Upper Limit                   10,616              $320,198
                Note: All statistical projections are at the 90-percent confidence level.




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                B-2
Appendix C – M EDICAL C ONSULTANT - C ASE C LOSURE
                             B ONUS C ERTIFICATION FORM
            MEDICAL CONSULTANT - CASE CLOSURE BONUS CERTIFICATION

   Name of Medical Consultant           Social Security Number Time Base (FT, PT)              Position Number


RATE:
Medical Consultant I's and Medical Consultant I's (Psychiatrist), will receive $27.00 per closure for each
case closed beyond an established base of 90 closed cases per workweek.

For part-time employees, the base production rate will be prorated consistent with the employee's time-
base, (i.e., a half-time employee in one of the classes indicated above would be expected to close 45 cases
per week before the pay differential would s

CRITERIA:

A week shall be considered Monday through Sunday. For monthly report purposes, the pay period that a
Saturday falls in will control the month into which that week's cases are credited.
Medical Consultant I's and Medical Consultant I's (Psychiatrist) are expected to maintain program
requirement with regard to accuracy of case adjudication.

Employees receiving this pay differential are not eligible for any other additional compensation for the
type and nature of the above described work.

CASES CLOSED FOR THE WEEK ENDING                           CASES CLOSED FOR THE WEEK ENDING
Total cases closed:                                        Total cases closed:
Minus base number (90, 45, etc.)                           Minus base number (90, 45, etc.)
Total number of extra cases                                Total number of extra cases

CASES CLOSED FOR THE WEEK ENDING                           CASES CLOSED FOR THE WEEK ENDING
Total cases closed:                                        Total cases closed:
Minus base number (90, 45, etc.)                           Minus base number (90, 45, etc.)
Total number of extra cases                                Total number of extra cases

CASES CLOSED FOR THE WEEK ENDING                             Pay Period:                              Year:
Total cases closed:                                            Total number of extra cases for the Pay Period
Minus base number (90, 45, etc.)                                                         X $27.00 =

Total number of extra cases                                                                            (Gross rate)

I certify that the above information is accurate.     I cerfity that the above employee is eligible for the amount shown.



  EMPLOYEE'S SIGNATURE                  DATE                           SUPERVISOR'S SIGNATURE                 DATE


                                                                     PLEASE PRINT SUPERVISOR'S NAME AND TITLE

THIS AREA FOR PERSONNEL USE ONLY:
                           DATE RECEIVED:                                   DATE ISSUED:

                                        DATE KEYED:                         PSS INITIALS:


Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                                                     C-1
Appendix D – AGENCY COMMENTS
August 26, 2013

Subject: Signed Draft Report (A-09-12-21248) - San Francisco Reply

Pat,

We reviewed the draft OIG report, “Bonus Payments Made to California Disability
Determination Services’ Employees” (A-09-12-21248), and attached are our comments and
recommendations for consideration.

Staff questions may be directed to Heather Hackett, Disability Program Administrator in the
Center for Disability, at (510) 970-8296.

Steve Breen for
Grace M. Kim
Regional Commissioner
Social Security Administration
Region IX - San Francisco




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)                                       D-1
Bonus Payments Made to CA-DDS Employees (A-09-12-21248)   D-2
Bonus Payments Made to CA-DDS Employees (A-09-12-21248)   D-3
Appendix E – CALIFORNIA DEPARTMENT OF SOCIAL
             SERVICES’ RESPONSE




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)   E-1
Bonus Payments Made to CA-DDS Employees (A-09-12-21248)   E-2
Bonus Payments Made to CA-DDS Employees (A-09-12-21248)   E-3
Bonus Payments Made to CA-DDS Employees (A-09-12-21248)   E-4
Appendix F – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Joseph Robleto, Audit Manager

Regina Finley, Senior Auditor

Manfei Lau, Senior Auditor

Wilfred Wong, Audit Data Specialist




Bonus Payments Made to CA-DDS Employees (A-09-12-21248)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
